                                SOCIAL SECURITY

MEMORANDUM

Date:   June 17, 2003                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Data Matching with Foreign Countries (A-13-03-23015)



        The attached final report presents the results of our audit. Our objective was to
        determine the availability of data in foreign countries the Social Security Administration
        could use to identify changes that may impact a beneficiary’s right to, or amount of,
        Old-Age, Survivors and Disability Insurance benefits. Specifically, we limited our
        review to data contained in death records in Canada, England, and Ireland.

        Please comment within 60 days from the date of this memorandum on corrective
        action taken or planned on each recommendation. If you wish to discuss the final
        report, please call me or have your staff contact Steven L. Schaeffer, Assistant
        Inspector General for Audit, at (410) 965-9700.




                                                  James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     DATA MATCHING WITH
      FOREIGN COUNTRIES
   June 2003     A-13-03-23015




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                  Executive Summary

OBJECTIVE

Our objective was to determine the availability of data in foreign countries the Social
Security Administration (SSA) could use to identify changes that may impact a
beneficiary’s right to, or amount of, Old-Age, Survivors and Disability Insurance benefits.
Specifically, we limited our review to data contained in death records in Canada,
England, and Ireland.

BACKGROUND
As of December 2002, there were approximately 418,000 Old-Age, Survivors and
Disability Insurance beneficiaries residing in foreign countries receiving about
$192 million in monthly benefits (about $2.3 billion, annually). SSA advises
beneficiaries that it is their responsibility to report specific events that could affect the
beneficiary’s right to, or amount of, benefits.

SSA has become the focal point in the United States for death data. SSA maintains a
Death Master File, which contains about 70 million records, including SSA beneficiaries
and non-beneficiaries, with verified and unverified reports of death. Approximately
2 million SSA beneficiaries die in the United States, annually. Friends, relatives, and
funeral homes account for about 90 percent of the death notifications to SSA, postal
authorities and financial institutions account for about 5 percent, and automated death
matches with the States and others account for about 5 percent. SSA uses the death
notifications to prevent benefit payments from being issued to deceased persons. The
General Accounting Office has identified data sharing and matching as a best practice
for identifying and reducing payment errors.

RESULTS OF REVIEW

SSA conducts certain activities to identify changes that may impact beneficiaries
residing in foreign countries. The Agency sends out questionnaires periodically,
conducts validation surveys in foreign countries, and initiates projects under Mutual
Assistance Agreements. However, information is available in death records maintained
in foreign countries that SSA could use for electronic data matching. Although the
General Accounting Office has determined that data matching is a “best practice“ for
identifying and reducing payment errors, SSA has neither conducted automated data
matches of death information with foreign countries nor piloted any such data matches
to determine their cost-benefit.




Data Matching with Foreign Countries (A-13-03-23015)                                            i
RECOMMENDATIONS
We recommend that SSA:

1. Complete negotiations with Italy for establishing a model for an automated death
   data exchange.

2. Work with representatives of Canada, England, and Ireland to determine whether
   sufficient automated death information exists within these countries for use in
   matching with its benefit payment data.

3. Conduct pilot matches of automated death data, where feasible, using lessons
   learned and best practices obtained from the electronic death data match with Italy.

4. Determine whether continued matches should be initiated to prevent Old-Age,
   Survivors and Disability Insurance overpayments to deceased beneficiaries or their
   representative payees residing in foreign countries, based on cost-benefit data
   obtained from prior data matches.


AGENCY COMMENTS
SSA generally agreed with our recommendations. Regarding Recommendation 2, the
Agency stated that beyond determining whether sufficient automated death information
exists, there would still be other legal and technological issues that would have to be
resolved. In addition, the Agency provided other comments. The text of SSA’s
comments is included in Appendix B.


OIG RESPONSE

We believe SSA should continue to expand its use of data matching to assist in
identifying improper payments. As the Agency proceeds in these endeavors, it should
continue to address any technological and legal barriers that may exist.




Data Matching with Foreign Countries (A-13-03-23015)                                      ii
                                                           Table of Contents
                                                                                                                Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

       SSA Conducts Certain Activities to Identify Changes Impacting
       Beneficiaries Residing in Foreign Countries....................................................5

       SSA Could Use Death Records Maintained in Canada, England, and
       Ireland for Data Matching ................................................................................7

       Possible Impediments May Exist for Electronic Data Matching with
       Foreign Countries............................................................................................9

CONCLUSIONS AND RECOMMENDATIONS.....................................................10

APPENDICES

APPENDIX A – Canada, United Kingdom, and Ireland Fact Sheet

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Data Matching with Foreign Countries (A-13-03-23015)
                                                                  Acronyms
 DMF                Death Master File

 GAO                General Accounting Office

 MAA                Mutual Assistance Agreement

 OASDI              Old-Age, Survivors and Disability Insurance

 Rep Payee          Representative Payee

 SSA                Social Security Administration

 SSN                Social Security Number




Data Matching with Foreign Countries (A-13-03-23015)
                                                                       Introduction
OBJECTIVE
Our objective was to determine the availability of data in foreign countries the Social
Security Administration (SSA) could use to identify changes that may impact a
beneficiary’s right to, or amount of, Old-Age, Survivors and Disability Insurance (OASDI)
benefits. We limited our review to data contained in death records in Canada, England,
and Ireland.

BACKGROUND
As of December 2002, there were approximately 418,000 OASDI beneficiaries residing
in foreign countries receiving about $192 million in monthly benefits (about $2.3 billion,
annually). SSA advises beneficiaries that it is their responsibility to report specific
events that could affect the beneficiary’s right to, or amount of, benefits. Self-reporting
occurs when a beneficiary, or their representative payee (Rep Payee), notifies SSA
about such an event.1 SSA provides instructions for beneficiaries or their Rep Payees
regarding the types of events that must be reported promptly, after they occur.
Reporting instructions specifically for beneficiaries residing outside the United States
are contained in SSA Publication No. 05-10137, Social Security: Your Payments While
You Are Outside the United States. Events that must be reported include

•   change of address,
•   work outside the United States,
•   improvement of disability,
•   marriage,
•   divorce,
•   child leaves care,
•   inability to manage payments, and
•   death.




1
 A Rep Payee is a person or organization SSA selects to receive benefits on a beneficiary’s behalf.
Generally, SSA will select a Rep Payee if SSA determines the beneficiary cannot manage or direct the
management of his/her benefit payments. 42 U.S.C. §§ 405(j) and 1383(a)(2).



Data Matching with Foreign Countries (A-13-03-23015)                                                   1
SSA does not rely exclusively on self-reporting to determine appropriate benefit
payments. The Agency also sends out questionnaires periodically to all OASDI
beneficiaries, or their Rep Payees, residing in a foreign country.2 Information obtained
from the questionnaires could affect the beneficiary’s right to, or amount of, benefits.
Moreover, SSA conducts validation surveys3 to determine the integrity of the program
and the accuracy of the payments being made. SSA also relies on self-reporting for
payments to beneficiaries residing in the United States to foster program integrity and
help identify payment errors.

In addition, SSA uses data sharing and matching to supplement beneficiary self-
reporting. In October 2001, the General Accounting Office (GAO) published a guide4 on
managing improper payments. GAO identified data sharing with vendors, States, and
other Federal agencies as a “best practice” for identifying and reducing payment errors.
GAO cited SSA for its use of this “best practice” and noted that SSA performs over 20
data matches with more than 10 Federal agencies and 3,500 State and local entities.5

As required by law,6 SSA obtains death data from the States or their political
subdivisions to compare that data to its own records. SSA makes this comparison to
ensure it is making proper payments and that payments are not being sent to deceased
persons.7 Approximately 2 million SSA beneficiaries die in the United States, annually.8
Friends, relatives, and funeral homes provide SSA about 90 percent of the death
notifications. Postal authorities and financial institutions account for about 5 percent,
and computer matches conducted by SSA identify the remaining 5 percent. SSA uses
the Death Alert, Control, and Update System to match death data with its information for
beneficiaries receiving benefit payments.
2
 The questionnaires are Forms SSA-7162-OCR-SM for beneficiaries (Report to United States Social
Security Administration) and SSA-7161-OCR-SM for Rep Payees (Report to United States Social
Security Administration by Person Receiving Benefits for a Child or for an Adult Unable to Handle Funds).
SSA distributes the questionnaires either annually or biennially depending on the country of residence
and the type of benefits involved.
3
  A validation survey involves SSA making a personal contact with a beneficiary to confirm identity and
continuing eligibility for benefits. A sample of beneficiaries is selected for contact to determine the
soundness of the program as it concerns beneficiaries residing in a foreign country.
4
Executive Guide Strategies to Manage Improper Payments, GAO-02-69G.
5
 Id. at 18. Federal entities performing data matching must do so in accordance with the provisions of the
Privacy Act of 1974, as amended. 5 U.S.C. § 552a. Death information furnished to the Commissioner of
SSA is exempt from the requirements of the Privacy Act. 42 U.S.C. § 405(r)(6); 5 U.S.C. § 552a(a)(2).
This Audit is limited to examining the feasibility of data exchanges of death information. Exchanges of
other information between SSA and foreign countries must be reviewed for compliance with the Privacy
Act.
6
    42 U.S.C. § 405(r).
7
 SSA also obtains death data from other Federal agencies that provide benefit payments, such as the
Veterans Administration.
8
    Annual Statistical Supplement, 1999 to the Social Security Bulletin, table 6. F2.


Data Matching with Foreign Countries (A-13-03-23015)                                                      2
SSA has become the focal point for death data in the United States. This extends
beyond the Agency’s core mission. SSA maintains a Death Master File (DMF), which
contains about 70 million records including SSA beneficiaries and non-beneficiaries,
with verified and unverified reports of death. In fact, SSA is required to make the DMF
available to Federal and State agencies administering Federally funded benefits to
match against their own beneficiary information.9 SSA is also required to make the
DMF available to the private sector.10 SSA is authorized to pay the States or political
subdivisions for their costs in transcribing their death data and transmitting the data to
SSA. Alternately, SSA may charge users for the cost of providing these data.

To identify erroneous payments to deceased individuals, SSA’s Death Alert, Control,
and Update System performs computer matches with death data received from internal
and external sources. SSA estimates it saves $350 million, annually, in OASDI benefit
payments and $325 million in Supplemental Security Income payments through the
overall use of data matching, including matches of death data.

SCOPE AND METHODOLOGY
We limited our review to death records maintained in Canada, England, and Ireland.
We selected these countries because they had a sizable Social Security beneficiary
population (a total of approximately 124,000 beneficiaries), maintained death
information in the English language, and maintained bilateral Totalization agreements11
with SSA. See Appendix A for detailed information on each country.

To accomplish our objective, we:

•     Reviewed SSA’s policies, procedures, and statistics related to OASDI payments to
      beneficiaries residing outside the United States.
•     Reviewed prior Office of the Inspector General and SSA reports related to death
      matches as well as the GAO guide regarding “best practices” for identifying and
      reducing payment errors.
•     Interviewed SSA personnel responsible for data matches and payments to
      beneficiaries living abroad.
•     Interviewed foreign government personnel responsible for recording and maintaining
      death records.
•     Reviewed documentation describing data collection and recordation of vital life
      events in foreign countries.

9
    42 U.S.C. § 405(r)(3).
10
   5 U.S.C. § 552. However, SSA may not disclose DMF information if SSA’s only source of that
information was a State Death Match. Program Operations Manual System, GN 03315.010(A)(2)(a).
11
  International Social Security agreements, often called “Totalization Agreements,” have two main
purposes: they eliminate dual taxation and help fill the gaps in benefit protection for workers who have
divided their careers between the United States and another country. See 42 U.S.C. § 433.


Data Matching with Foreign Countries (A-13-03-23015)                                                       3
Our audit was conducted between August 2002 and January 2003 in Baltimore,
Maryland. The primary entities audited were SSA’s Offices of International Operations
and International Programs. Except for a limitation of scope regarding the assessment
of internal controls and compliance with laws and regulations, we conducted our review
in accordance with generally accepted government auditing standards.




Data Matching with Foreign Countries (A-13-03-23015)                                     4
                                                       Results of Review
SSA has engaged in activities to identify changes impacting OASDI benefit payments to
beneficiaries residing in foreign countries. However, we determined that information is
available in death records maintained by certain countries that the Agency could use to
determine whether those payments need to be adjusted or terminated. Although there
may be issues that need to be resolved, the data maintained by these countries could
be used to perform electronic data matching of foreign death records with SSA’s
beneficiary rolls.

As of January 2003, SSA had begun discussions with representatives from Italy to
establish electronic data exchanges, including death records. The discussions have
centered on establishing a pilot project. SSA officials involved in the negotiations have
expressed the opinion that this activity be completed and precede other potential data
matches with foreign nations. The lessons learned from this activity are expected to
provide useful information in establishing pilot programs with other nations. Also, Italy
has the lead for data exchanges within the European Union and has already developed
a web-based encrypted system that could be applied to future data exchanges.

SSA has also had preliminary discussions regarding electronic data exchanges with
representatives from Ireland.

SSA Conducts Certain                 SSA has conducted certain activities in Canada, the
Activities to Identify               United Kingdom, and Ireland to identify changes that
Changes Impacting                    may impact a beneficiary’s right to, or amount of,
                                     OASDI benefit payments.12 Those activities did not
Beneficiaries Residing in
                                     include electronic data matches, but did include the
Foreign Countries
                                     following.

Canada

•    A validation survey was completed in 1969. The predominant problem areas
     identified were inaccurate dates of birth and unreported work activity. Based on its
     work, the Agency concluded there were enough instances of unreported work
     activity to support the need for improvements in its efforts to obtain information
     impacting beneficiaries’ benefit payments. Another validation survey conducted in
     1976 also found that unreported work activity was the primary problem.



12
  The United Kingdom consists of a union of England, Scotland, Wales, and Northern Ireland.
Throughout this report, we refer to the United Kingdom when referring to the sovereign entity that
conducts international agreements with the United States. However, we limited our review to examining
records only in England because most of the United Kingdom population resides in England, each
country has variations in its recordkeeping, and review of record systems in the other entities in the
United Kingdom is not necessary to meet the objective of this review.



Data Matching with Foreign Countries (A-13-03-23015)                                                     5
•    Pursuant to a 1996 Mutual Assistance Agreement (MAA),13 the United States and
     Canada executed a detailed Administrative Understanding on Mutual Assistance in
     1998. SSA requested that Canada confirm the existence of all Canadian residents
     age 90 and older receiving U.S. Social Security benefits. Approximately
     3,000 beneficiaries were identified. As a result, SSA found that about $151,000 in
     overpayments and $17,000 in underpayments occurred because of non-reporting of,
     and/or discrepancies in, date of death. For this project, SSA provided Canada paper
     records, which were not formatted to enable electronic matching. Based on a
     recommendation from Canada, SSA will make every effort to exchange data
     electronically in future projects.

•    During its 1998 validation survey, the first since 1976, SSA reviewed about
     1,600 randomly selected beneficiaries. Survey results identified several items that
     could impact a beneficiary’s right to, or amount of, OASDI benefit payments.
     Irregularities were found in the areas of existence and identity, unreported work
     activity, failure to report non-covered pension, and remarriage. SSA found four
     unreported deaths with overpayments totaling over $36,000. SSA noted that the
     size of the country and beneficiary population made it difficult to monitor the
     program’s integrity. The report contained a recommendation to conduct surveys
     more frequently, perhaps every 10 years.

United Kingdom

•    Pursuant to a 1992 MAA, the United States and the United Kingdom conducted a
     pilot project. SSA requested the United Kingdom personnel make home visits to two
     distinct groups: beneficiaries age 95 or older and beneficiaries with a Rep Payee.
     These groups were thought to be the most likely to contain an unreported death. No
     instances of unreported death were found in either group. However, SSA found the
     project’s benefits outweighed the difficulties encountered in conducting the effort and
     recommended the possibility of further program integrity-related work.

•    SSA requested, pursuant to another MAA, that United Kingdom representatives visit
     1,000 randomly selected SSA beneficiaries to determine whether any events had
     occurred that would have affected payment accuracy. One instance of an
     unreported death was found. However, an estimated $191,000 in overpayments
     was discovered because of unreported events, such as pension income or work
     activity. SSA concluded that these surveys were expensive, but necessary from an
     integrity perspective, and cost-beneficial.




13
  An MAA is a formal Administrative Agreement whereby SSA and a foreign governmental entity spell out
the details of a project that will entail mutual assistance.


Data Matching with Foreign Countries (A-13-03-23015)                                               6
Ireland

•     Since 2001, SSA and representatives of Ireland have been in discussions
      concerning future mutual assistance work. Both countries have agreed that a
      prerequisite for conducting a data match is that the data must be in an electronic
      form and contain data fields adequate to facilitate a match.

SSA Could Use Death        SSA could use death records maintained in foreign countries
Records Maintained in      in conducting an electronic data match to identify deaths of
                           beneficiaries residing in those countries. Canada, England,
Canada, England, and
                           and Ireland maintain death records that contain data fields14
Ireland For Data
                           that could be used to determine when a beneficiary has
Matching
                           died. We identified and obtained information regarding the
                           recordation and maintenance of vital records located in
these countries. SSA could electronically match its beneficiary data against the
information maintained by these countries to identify beneficiaries that may have died.

Canada

In Canada, vital records, including death records are recorded and maintained by
Province, the regional government designation. These records may be maintained on
paper, on microfilm, or electronically. Each Province has its own set of data fields.
These data fields include name, dates and places of birth and death, marital status,
parents’ and spouse’s names, and employment information. Records are maintained
alphabetically and by date of death.

Canada has embarked on a project to establish a national routing system to replace the
paper-based routing among the Provinces. This would facilitate an improved electronic
transmission of vital event data. Canada anticipates that implementation of a national
vital event capture and routing system will provide for more timely, accurate, and
accessible data.

England15

Within England, vital records, including death records are recorded and maintained in
local Registrars’ offices and also maintained at a centralized location in the General
Register Office in London. Death records in London are maintained on paper,
microfilm, and CD-ROM. Since 1984, indexes of death records have been automated
and available on CD-ROM. Additionally, the indexes are being made available on-line.
Data fields on the death certificate include name (including maiden name), dates and

14
     Data fields include name, address, date of birth, date of death, etc.
15
  When reviewing how death records are recorded and maintained in the United Kingdom, we limited our
review to England. Within the United Kingdom, there is an office responsible for registering vital events
data for England and Wales, and there is a separate office each for Scotland and Northern Ireland.


Data Matching with Foreign Countries (A-13-03-23015)                                                    7
places of birth and death, and occupation. Records are maintained alphabetically and
by date of death.

Ireland

In Ireland, death records are recorded and maintained in local Registrars’ offices and at
a centralized location in the General Register office in Dublin. Paper records are
maintained in local Registrars’ offices. Centralized records are maintained on microfilm.
Data fields include name, age, gender, usual occupation and address of employer, and
dates of birth and death. Records are maintained alphabetically and by date of death.

A consultant’s report issued in 2001 reported Ireland’s system of record was still largely
manual and paper-based. The consultant recommended the creation of an automated
system and database of vital records. The Government of Ireland has begun
modernization initiatives. The modernization efforts will include Ireland’s system of
recording vital life events, such as death records. The conversion of archival records to
an electronic medium has already begun, as has a project to capture all new records on
an on-line computer system.

Performing Electronic Data Matching

SSA-issued Social Security numbers (SSNs) were not used as an identifier in the vital
records of countries for which we gathered information. However, this does not
preclude electronic data matching. For example, SSA performed a pilot data match
between the Master Beneficiary Record16 and marriage/divorce records maintained by
the State of Kansas. SSA used an Alphident17 search to identify SSNs because the
State of Kansas did not record the SSN on its marriage records. The data fields used to
discover the SSN were last name, first name, middle initial, date of birth, and gender.
These data fields are available or can be determined from the death data records
maintained in Canada, England, and Ireland.

SSA does not obtain death data from foreign countries for electronic data matching.
Furthermore, SSA has not piloted any foreign electronic data matches to determine
whether this effort would be cost-beneficial. However, as of January 2003, SSA had
begun discussions with representatives from Italy to establish automated data
exchanges, including death records. These discussions may result in the Agency
conducting an electronic data match with Italy. If an electronic data match is initiated,
SSA should identify “best” practices and “lessons learned” for use in future data
matches. SSA has held preliminary discussions regarding data exchange activities with
representatives from Ireland.
16
  The Master Beneficiary Record is a database of every OASDI beneficiary. It is established on an
account basis after an initial claim action is received.
17
    The Alphident database contains records that allow SSA to search the Numident (master file of all
assigned Social Security Numbers and their associated customer records) based on name and date of
birth information. SSA can search the Alphident to match a name and date of birth with other databases
and try to obtain a person’s SSN.


Data Matching with Foreign Countries (A-13-03-23015)                                                     8
Further, the Office of the Inspector General, Office of Investigations, has also initiated
complementary efforts. Since November 2001, the Office of Investigations has been
exploring the possibility of obtaining Mexican death records from a private entity for
matching purposes and obtaining funding from SSA for this project.

                                 Based on our discussions with Agency staff members and
Possible Impediments
                                 recordkeeping personnel in Canada, possible impediments
May Exist for Electronic
                                 may exist regarding electronic data matching. Possible
Data Matching with
                                 impediments include concerns about disclosure of
Foreign Countries
                                 information and the lack of cost-benefit data.
                                 For example, Canadian personnel expressed concerns
about disclosure of vital record data. Representatives of the United Kingdom have also
expressed concerns to the Agency that legal constraints18 may exist regarding the
ability to disclose its vital record data. During our review, representatives of Ireland
were in negotiations with SSA and had not expressed concerns about their ability to
disclose data. However, after we completed our review, representatives of Ireland
expressed concerns to SSA about Ireland’s ability to disclose data. In addition to their
own laws, England and Ireland are members of the European Union and therefore are
subject to European Union criteria regarding disclosure issues. However, the
negotiations with Italy are expected to provide possible solutions for any potential
impediments that may exist for future data matches.

The Agency lacks specific data on the cost-benefit of performing electronic data
matching with foreign countries. In prior validation surveys and MAAs, SSA noted the
projects were, beneficial and cost-effective. The Agency previously estimated that it
saves $350 million, annually, in OASDI benefits and $325 million in Supplemental
Security Income payments through domestic data matching. In an evaluation of its
National Death Match, SSA has addressed the cost-benefit of performing domestic
death data matching. As of the end of our field work in January 2003, the evaluation
had not been released in final, and the results were unavailable. Also, when the data
matching was performed using the State of Kansas data, which lacked SSNs, SSA
stated that this data match proved to be both feasible and cost-effective. However, it
was not feasible to use automated data matches to identify termination and benefit
reduction situations without including manual screening and review.




18
 Data Protection Act 1998.


Data Matching with Foreign Countries (A-13-03-23015)                                         9
                                                        Conclusions and
                                                       Recommendations
GAO has recognized data matching to identify improper payments as a “best practice.”
SSA has estimated hundreds of million dollars in savings annually by using data
matching. Since SSA payments to OASDI beneficiaries residing abroad exceed
$2 billion, annually, SSA needs to explore additional cost-effective mechanisms that
address the risk of improper payments. Death records in Canada, England, and Ireland
contain data that can be matched with SSA records to determine potential improper
payments.19 Although these countries do not use SSA’s issued SSNs as an identifier,
this does not preclude a matching initiative. We recommend that SSA:


1. Complete negotiations with Italy for establishing a model for an automated death
   data exchange.

2. Work with representatives of Canada, England, and Ireland to determine whether
   sufficient automated death information exists within these countries for use in
   matching with its benefit payment data.

3. Conduct pilot matches of automated death data, where feasible, using lessons
   learned and best practices obtained from the electronic death data match with Italy.

4. Determine whether continued matches should be initiated to prevent OASDI
   overpayments to deceased beneficiaries or their Rep Payee residing in foreign
   countries, based on cost-benefit data obtained from prior data matches.


AGENCY COMMENTS

SSA generally agreed with our recommendations. Regarding Recommendation 2, the
Agency stated that beyond determining whether sufficient automated death information
exists, there would still be other legal and technological issues that would have to be
resolved. In addition, the Agency provided other comments. The text of SSA’s
comments is included in Appendix B.




19
 We define an improper payment as caused by either an unreported or late-reported death.


Data Matching with Foreign Countries (A-13-03-23015)                                       10
OIG RESPONSE

We believe SSA should continue to expand its use of data matching to assist in
identifying improper payments. As the Agency proceeds in these endeavors, it should
continue to address any technological and legal barriers that may exist.




Data Matching with Foreign Countries (A-13-03-23015)                                  11
                                        Appendices




Data Matching with Foreign Countries (A-13-03-23015)
                                                                  Appendix A

Canada, United Kingdom, and Ireland Fact
Sheet
                            Canada                  United         Ireland
                                                   Kingdom
Number of
beneficiaries
residing in country           91,000                   26,000       7,000
Annual total
benefits sent to
beneficiaries in
country                    $446 million            $147 million   $49 million
Death data
recorded and
maintained in
English language                Yes                     Yes          Yes
Existing bilateral
agreement                       Yes                     Yes          Yes
Prior Mutual
Assistance
Agreement or
Validation Survey               Yes                     Yes          Yes




Data Matching with Foreign Countries (A-13-03-23015)
                                                       Appendix B

Agency Comments




Data Matching with Foreign Countries (A-13-03-23015)
                                         SOCIAL SECURITY

MEMORANDUM - Revision


Date:     May 23, 2003                                                      Refer To: S1J-3

To:       James G. Huse, Jr.
           Inspector General

From:     Larry W. Dye      /s/
          Chief of Staff

Subject   Office of the Inspector General Draft Report, “Data Matching with Foreign Countries”
:         (A-13-03-23015)—INFORMATION


          We appreciate OIG's efforts in conducting this review. Our comments on the
          recommendations are attached.

          Please let us know if we can be of further assistance. Staff questions can be referred to
          Janet Carbonara at extension 53568.

          Attachment:
          SSA Response




          Data Matching with Foreign Countries (A-13-03-23015)                                   B -1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DATA MATCHING WITH FOREIGN COUNTRIES” A-13-03-23015


We appreciate the opportunity to comment on this draft report. The Social Security
Administration agrees that it would be beneficial to develop agreements with foreign countries to
automatically exchange death data. However, it should be noted that the enforcement activities
initiated by SSA in the three countries included in this report have not identified a major problem
with unreported deaths. In fact, studies in Canada, England and Ireland show that in most cases,
deaths are reported to SSA or the Foreign Service Posts on a timely basis.


Recommendation 1

Complete negotiations with Italy for establishing a model for an automated death data exchange.

We agree. However, while negotiations have been initiated with Italy, there are a number of
technological issues that have to be addressed that may impede or delay the successful
implementation of a model. For example, because of different naming traditions in each country,
a name on SSA’s databases and on Italian records may be shown differently even though they
refer to the same individual. While we believe it is possible to resolve these issues, there is no
guarantee we will be able to implement a fully automated death match.

Recommendation 2

Work with representatives of Canada, England, and Ireland to determine whether sufficient
automated death information exists within these countries for use in matching with its benefit
payment data.

Comment

The Agency has had preliminary discussions with Canada concerning the possibility of
electronic data exchange pending completion of the data exchange pilot with Italy. However,
beyond determining whether sufficient automated death information exists, there would still be
other legal and technological issues that would have to be resolved. A resolution of those issues
in a match with Italy does not guarantee they would be transferable to matches with other
countries. For example, Italy’s privacy/disclosure concerns may be different from those of
Canada, England or Ireland.




Data Matching with Foreign Countries (A-13-03-23015)                                         B -2
Recommendation 3

Conduct pilot matches of automated death data, where feasible, using lessons learned and best
practices obtained from the electronic death data match with Italy.

Comment

The Agency will work to establish and conduct pilot matches using lessons learned and best
practices obtained from the electronic death data match pilot with Italy.

Recommendation 4

Determine whether continued matches should be initiated to prevent Old-Age, Survivors and
Disability Insurance overpayments to deceased beneficiaries or their representative payees
residing in foreign countries, based on cost-benefit data obtained from prior data matches.

Comment

The Agency agrees to conduct an analysis of cost benefit data obtained from prior matches after
the data exchange model pilot with Italy is negotiated.




Data Matching with Foreign Countries (A-13-03-23015)                                         B -3
                                                                     Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

    Shirley E. Todd, Director, General Management Audit Division
    (410) 966-9365

    Brian Karpe, Lead Auditor, General Management (410) 966-1029

Acknowledgments

In addition to those named above:

    Jerry Hockstein, Senior Program Analyst

    Evan Buckingham, Senior Program Analyst

    Sandra Westfall, Senior Program Analyst

    Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to common Identification Number A-02-02-12033.




Data Matching with Foreign Countries (A-13-03-23015)
                        DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
